              U.S. Department of Energy
              Office of Inspector General
              Office of Audits and Inspections




Audit Report
The Resumption of Criticality
Experiments Facility Operations at the
Nevada National Security Site




OAS-M-13-09                        September 2013
                                   Department of Energy
                                     Washington, DC 20585

                                        September 30, 2013


MEMORANDUM FOR THE PRINCIPAL DEPUTY ADMINISTRATOR, NATIONAL
               NUCLEAR SECURITY ADMINISTRATION


FROM:                     George W. Collard
                          Assistant Inspector General
                            for Audits
                          Office of Inspector General

SUBJECT:                  INFORMATION: Audit Report on "The Resumption of Criticality
                          Experiments Facility Operations at the Nevada National Security Site"

BACKGROUND

The mission of the Criticality Experiments Facility, located at the Los Alamos National
Laboratory (Los Alamos) was to conduct nuclear criticality experiments and hands-on training in
nuclear safeguards, criticality safety and emergency response in support of the National
Criticality Safety Program. Citing safety and security concerns, in 2004 the National Nuclear
Security Administration (NNSA) halted criticality experiments at Los Alamos and authorized a
capital project to transfer this capability to the Device Assembly Facility at the Nevada National
Security Site (Nevada). The Nevada Field Office provided oversight of the project, which was
managed through a joint contractor project team composed of Los Alamos, Lawrence Livermore
National Laboratory (Livermore), National Security Technology, LLC (NSTec) and Wackenhut
Services International. NSTec was responsible for maintaining the infrastructure and safety
basis documentation needed to operate the facility. Safety basis documentation describes the
facility and the controls needed to ensure safe operations. The project remodeled a portion of the
Device Assembly Facility to form the National Criticality Experiments Research Center
(NCERC). Four criticality machines, named Godiva, Planet, Comet and Flat-Top, were
transferred from Los Alamos to NCERC as part of this project. The Project Execution Plan
listed a target date of May 2010, for approval of start-up of the new facility.

Because of the importance of maintaining the criticality safety program, we initiated this audit to
determine whether NNSA had safely restored the criticality experiment capabilities transferred
from Los Alamos to NCERC as planned.

RESULTS OF AUDIT

We found that NNSA restored many of the former capabilities of the Criticality Experiments
Facility at the NCERC in Nevada. We noted, however, that several problems with start-up
activities resulted in delays in restoring the full array of experimental capabilities included in the
project. Specifically:
     •   NNSA was unable to authorize the start-up of NCERC operations until May 2011,
         approximately 1 year after the planned date. The program experienced further delays in
         the start-up activities of each criticality machine, with completion of all planned start-
         up activities for one machine delayed about 2 years.

     •   NCERC has been unable to restore its full capability to perform plutonium-based
         criticality experiments.

The delays in restoring capabilities occurred because NNSA had not ensured that: (a)
contractors had developed adequate procedures for correcting concerns identified during the
process to authorize the start-up of NCERC; (b) the safety basis documentation matched facility
conditions; and (c) procured safety equipment met cited standards. Additionally, NNSA had not
ensured effective management of the multiple contractors involved in developing and amending
the safety basis documentation, which ensures that nuclear operations can be conducted without
undue risk to workers and the public. Finally, NNSA has struggled to successfully integrate and
resolve issues between the multiple contractors involved in NCERC facility operations.

The Office of Inspector General has previously raised concerns about NNSA's ability to restart
criticality operations at the NCERC. Specifically, in 2007, the Office of Inspector General
issued Management Controls over the National Nuclear Security Administration's Ability to
Maintain Capability of the TA-18 Mission (OAS-M-07-02, February 2007). That report noted
that full resumption of criticality operations by Fiscal Year 2010, was at risk because NNSA had
not adequately planned to replace, train and certify the staff needed to conduct criticality
experiments once the project to move the Criticality Experiments Facility was completed. As of
August 2012, it appeared that previously reported staffing issues had been resolved and that there
was a sufficient number of trained and qualified staff available for NCERC to begin operations.

According to NNSA officials, additional work scope was transferred from Technical Area-18 to
the Device Assembly Facility beginning in 2005, such as support for the Emergency Response
Program and for packaging and shipping of nuclear materials. We did not review these
activities, which were not part of the capital project or within the scope of our review.

Delays in Facility Operations

NNSA was unable to authorize the start-up of NCERC operations until a year after the planned
date. The authorization, which was scheduled in May 2010, was delayed until May 2011 so that
NSTec and Los Alamos could correct contractor concerns identified during the readiness
process. The readiness process for NCERC, which consisted of several reviews, began as
scheduled in October 2009, with a review by NSTec and Los Alamos, followed by two
subsequent contractor operational readiness reviews in December 2009 and June 2010. An
NNSA official stated that the number of concerns identified in the readiness reviews were
commensurate with the complexity of the facility and operations, and that corrective actions to
address the issues identified in such reviews are typically completed in a matter of weeks.
However, corrective actions to resolve issues from the two contractor operational readiness
reviews took 8 months, delaying the Federal readiness review until July 2010. The corrective
actions in response to the Federal review that were required for start-up took an additional

                                                2
10 months to complete. In addition, about two-thirds of the concerns in the Federal readiness
review were similar to concerns from the previous reviews in the areas of conduct of operations,
safety basis and facility safety.

                                        Machine Operations

After NNSA granted authorization for start-up of the facility as a whole in May 2011, the facility
operators were required to complete start-up activities for each machine. These activities
included assembly of each machine and verification that the operators, equipment and
procedures could safely perform the required operations with special nuclear materials.
However, start-up activities were further delayed because the safety basis documentation
required correction to include the full range of activities for one criticality machine. Specifically,
in the September 2009 Start-up Plan, Godiva was scheduled for start-up to be completed in June
2011. However, delays in the authorization for facility start-up delayed Godiva start-up by about
a year. While Godiva's operators were able to perform the initial activities in the Godiva start-up
plan and declare the assembly operational by April 2012, completion of the full array of
activities in the start-up plan was ultimately delayed until June 2013, about 2 years after
originally scheduled.

In addition, NCERC has been unable to restore its full capability to perform plutonium-based
criticality experiments within the authorized safety basis. The Defense Nuclear Facilities Safety
Board (DNFSB) questioned whether some equipment was in compliance with the facility safety
basis. In response, NSTec declared a potential inadequacy in the safety basis, leading the Device
Assembly Facility manager to prohibit plutonium operations on Godiva and Flat-Top. In
addition, persistent issues with flow requirements for the fire suppression system also led the
facility manager to restrict plutonium capability on the other two machines, Comet and Planet.
As a result of the restrictions, the plutonium portion of one critical experiment that was
underway on Comet in September 2012, was delayed until December 2012, after an NSTec
representative questioned whether the safety basis permitted the activity. At the time of our
review, some plutonium operations could be performed with restrictions on two of the four
machines.

Oversight and Management of NCERC

Weaknesses in Federal oversight contributed to delays in facility operations. Specifically, delays
in the restart of criticality operations occurred because NNSA had not ensured that contractors
adequately resolved concerns related to start of operations at NCERC or that safety basis
documentation was consistent with facility conditions. In addition, delays occurred after
authorization of facility start-up because NNSA did not ensure that safety equipment met
standards cited in the safety basis or that the work of multiple contractors was fully integrated.

                                 Resolution of Corrective Actions

Delays in completing the readiness reviews and the attendant delays in the start of operations
occurred, in part, because the Nevada Field Office had not ensured that contractors had an
effective corrective action resolution process. Although the readiness process identified



                                                  3
concerns and the contractors generated corrective actions in response, the corrective action
resolution process was ineffective in correcting recurring systemic concerns. The readiness
reviews identified similar concerns, such as procedures that could not be executed as written,
controls that were not adequately implemented, and changes needed in the safety basis of the
facility before operations could be authorized. Twenty-three of the 36 Federal review concerns
were in the conduct of operations, safety basis and facility safety focus areas. Those concerns
were similar to 18 concerns identified in previous contractor reviews. For example, the Federal
readiness review identified the need for revisions in a fire system procedure that had previously
been identified and reported as corrected by the contractor.

In addition, the contractors' analyses of the causes of concerns from their own reviews failed to
identify systemic issues and the root causes. For example, in response to one concern, NSTec
focused on correcting identified deficiencies in specific procedures rather than identifying the
root cause of the deficiency in the procedure development process. Accordingly, the corrective
actions did not address the deficiencies with the process for developing procedures. In
particular, the first contractor readiness review noted that the procedure development process did
not include requirements for verification and validation of technical procedures, which ensures
that the procedures could be used as written. While NSTec addressed the shortcomings in the
specific procedure identified in the concern, the contractor did not identify a cause for the
systemic weaknesses in the procedure development process. The failure to correct weaknesses in
the procedure development process and identify their causes contributed to the recurring
identification of procedure problems in the four readiness reviews.

Additionally, the Nevada Field Office confirmed that the contractors on the joint contractor
project team closed concerns before all corrective actions were completed. In particular,
contractors did not adequately implement validation requirements for corrective actions before
closing them. The four readiness reviews identified a total of 88 major concerns and 19
observations for correction by the contractors. Although a lower priority than findings, we
included observations in our review of concerns to indicate opportunities for improvement.
Many of the corrective actions required NSTec to revise procedures or other documentation to
ensure that activities would be conducted safely after start-up of the NCERC. Because of the
seriousness of the concerns, we selected a judgmental sample of 39 corrective actions to address
29 concerns from the 4 readiness reviews. However, we found that 15 of the 39 corrective
actions (38 percent) reviewed were prematurely closed by the contractor before completing all of
the required work. For example, NSTec closed a corrective action to add information about
system surveillance requirements to several design documents without adding all required
information to those documents. Although the results of our sample could not be extrapolated to
all of the corrective actions taken in response to the four readiness reviews, the large percentage
of errors in our sample demonstrated that substantial systemic weaknesses were present in the
corrective action resolution process. To their credit, the Nevada Field Office and NSTec made
changes to improve the site's readiness process and were able to restart another nuclear facility
within cost and schedule milestones. However, the Nevada Field Office and NSTec have not yet
addressed all issues present in the corrective action resolution process.

Our findings regarding the ineffectiveness of the corrective action program were consistent with
NNSA readiness review conclusions. Although it ultimately authorized the start of operations at
the NCERC, NNSA concluded in the final Federal readiness review that corrective actions for

                                                 4
previous review concerns had been inadequate. In response to that concern, NSTec prepared a
corrective action plan in October 2010, to make changes to its root cause analysis and extent of
condition review processes. The Nevada Field Office stated in an April 2012 validation that it
was unable to validate whether these actions in response to this concern were adequate. Further,
a January 2013 Nevada Field Office assessment found that NSTec's system did not always
ensure that identified non-compliant conditions were fully corrected prior to issue closure. As of
April 2013, the Nevada Field Office was working with NSTec to resolve the October 2010
corrective action plan.

                                         Federal Oversight

Ineffective oversight of the closure of corrective actions by the Nevada Field Office also
contributed to the premature closure of corrective actions. In particular, the final Federal
readiness review questioned the effectiveness of the Nevada Field Office's oversight of NSTec's
closure of corrective actions, citing a lack of clear expectations for the level of rigor required for
the Nevada Field Office to validate corrective actions. In its response to this concern, the
Nevada Field Office concurred and acknowledged that when the Nevada Field Office applied
higher rigor during validation, it was less likely that a similar concern occurred in the Federal
readiness review. However, while the Nevada Field Office made changes to its corrective action
validation procedures, we noted that the current procedures do not provide specific direction to
ensure corrective actions are effective and that the contractor identified and corrected related
systemic problems. Instead, the Nevada Field Office determined the level of rigor to be applied
to validation on a case-by-case basis. Given the weaknesses identified in the contractor issues
management system, this level of oversight may not ensure effective identification of systemic
issues or effective corrective actions to address identified issues.

                                    Safety Basis Documentation

Neither the Nevada Field Office nor the contractors involved in the joint contractor project team
adequately verified that the safety basis documentation matched facility conditions and contained
all equipment assembly activities prior to declaring readiness, leading to delays in facility start-
up. When the project team first declared the facility was ready to operate in September 2009, the
safety basis documentation and supporting procedures lacked some of the activities necessary for
facility start-up. During the readiness process, the four readiness reviews identified facility-wide
deficiencies in safety basis procedures for maintenance, surveillance and start-up operations.
Correcting the numerous safety basis deficiencies in start-up procedures contributed to the delay
in the authorization of facility start-up from May 2010 to May 2011. Many of these safety basis
procedures needed to be revised or corrected before NNSA could grant NSTec authorization to
begin facility start-up operations.

In addition, the lack of complete safety basis documentation for the criticality machines delayed
assembly of the machines. Specifically, the project team chose not to include the activities to
assemble Godiva and test the machine in three different types of critical operations in the facility
safety documentation, and the procedures for these activities had not been completed or
approved as required prior to the project team's declaration that the facility was ready to operate
in September 2009. Godiva start-up had already been delayed by about a year from the June
2011 date given in the September 2009 Start-up Plan because of overall facility delays. The

                                                  5
Federal readiness review identified concerns related to Godiva in the facility start-up plan and
safety basis. The project team rewrote the facility start-up plan in January 2011, reprioritizing
other activities and deferring work on the safety basis change required for the full range of
planned Godiva activities. As a result, the necessary safety basis change was ultimately
approved by the Nevada Field Office in March 2012, delaying completion of the initial activities
needed to declare Godiva operational until April 2012, and further delaying completion of the
full array of activities in the Godiva start-up plan until June 2013.

                                      Plutonium Operations

Additionally, the NCERC has been unable to perform plutonium operations as planned, in part,
because neither NNSA nor NSTec ensured that procured safety equipment met cited standards.
Specifically, the NSTec Device Assembly Facility manager imposed restrictions on the extent of
plutonium operations that can be performed at the facility due to concerns about equipment
compliance with a standard cited in the safety basis. In particular, the equipment used in the
NCERC that measured excess reactivity did not meet the safety classification requirements in the
2006 revision of Department Standard 3009, Preparation Guide for U.S. Department of Energy
Nonreactor Nuclear Facility Documented Safety Analyses. However, the equipment complied
with the approved design for the facility, which cited a 2002 revision of the standard that was in
place at the time the facility was designed in 2005. During the transfer of the Criticality
Experiments Facility capability to Nevada, management responsibility for the Device Assembly
Facility was transferred from Livermore, under the joint contractor project team, to NSTec.
NSTec was given responsibility for the safety basis documentation, which had been prepared by
Livermore. Prior to the transfer, Livermore had updated the safety basis to reference the 2006
revision of the Department standard.

In a lessons learned analysis, NSTec reported that the project team did not task it with reviewing
the safety basis when it took ownership of the document from Livermore because earlier versions
of the document had already been reviewed. As a result, neither Nevada Field Office officials
nor NSTec officials were aware of impacts from the updated Department standard for safety
equipment at the time. However, NSTec identified this as a potential inadequacy of the safety
analysis in 2010. The Nevada Field Office originally approved updating the safety basis
documentation to remove the requirement to measure excess reactivity from the safety basis.
However, in January 2013, the Nevada Field Office issued new direction to NSTec to correct the
documented safety analysis to reflect that the facility was designed and built to the 2002 revision
of Standard 3009. As of August 2013, the modification was being reviewed by the Nevada Field
Office but the safety analysis change had not yet been approved.

                               Integration of Multiple Contractors

NNSA has faced challenges in integrating the multiple contractors involved in the NCERC.
While the Deputy Administrator for Defense Programs recognized the achievements of the
joint contractor project team, communication and integration between the contractors has
nevertheless been cited frequently as an obstacle to operational efficiency to operations at
NCERC. For example, the DNFSB identified contractor integration at NCERC as a concern as
early as February 2006. As recently as 2010, the DNFSB found that NSTec lacked the
experience to adequately monitor Los Alamos' operations at NCERC. To its credit, the Nevada

                                                6
Field Office took steps in response to the DNFSB to better define the roles and responsibilities of
the two contractors. In addition, the Nevada Field Office has taken several steps to improve
contractor integration at the site, such as instituting a joint contractor criticality safety program to
improve contractor integration during safety basis preparation. While this joint contractor
program only addresses the disputes over certain specific types of safety basis work, the Nevada
Field Office has since undertaken a broader initiative to improve the site processes for tracking
and modifying safety basis documentation, and began using these updated processes to amend
the safety basis to allow plutonium operations. Nevertheless, workers at NCERC from both Los
Alamos and NSTec have identified communication and integration issues as a cause for delays to
prior safety basis submissions. In addition, the persistent difficulties in expanding the safety
basis documentation have led both NNSA and Los Alamos officials to express dissatisfaction
with the limitations in the types of work that can be performed within the safety basis currently
in place at the facility.

                                                Impact

Because of the importance of avoiding criticality accidents, the Department committed to
maintain a National Criticality Safety Program, including a community of trained individuals
competent in practicing criticality controls. The National Criticality Safety Program uses
NCERC to provide the hands-on training and criticality experiments necessary to ensure that the
Department can safely and efficiently perform all of its work involving significant quantities of
fissile material. However, work supporting future experiments has been delayed for periods of 6
months to 2 years. Finally, without being able to perform plutonium operations, the National
Criticality Safety Program will be less likely to attract a volume of work from other programs
and agencies to NCERC comparable to what it performed at Technical Area-18, work which
could help offset some of NNSA's operating costs.

RECOMMENDATIONS

To improve operational efficiency at the NCERC, we recommend that the Principal Deputy
Administrator, NNSA direct the Manager, Nevada Field Office to:

       1. Establish more rigorous requirements for the contractor to evaluate corrective actions
          and validate the effectiveness of corrective actions in correcting systemic issues;

       2. Reassess the formality and effectiveness of Field Office requirements for validating
          contractor corrective actions for high-consequence issues;

       3. Ensure that safety basis documentation and supporting procedures accurately describe
          the work being performed and the current condition of the facility, equipment and
          infrastructure;

       4. Ensure that safety basis documentation and safety basis changes are thoroughly
          reviewed for compliance to relevant standards prior to approval; and

       5. Work with other field offices to improve communication, efficiency and collaboration
          between NSTec and other contractors performing work on site.

                                                   7
MANAGEMENT REACTION AND AUDITOR COMMENTS

Management concurred with the report's recommendations and indicated that corrective actions
would be initiated. Management's proposed corrective actions are responsive to our
recommendations. Management comments are included in Attachment 3.

Attachment

cc: Deputy Secretary
    Acting Administrator, National Nuclear Security Administration
    Chief of Staff
    Manager, Nevada Field Office




                                              8
                                                                                    Attachment 1


                       OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

The objective for this audit was to determine whether the National Nuclear Security
Administration (NNSA) had safely restored the capabilities transferred from Los Alamos
National Laboratory to the National Criticality Experiments Research Center (NCERC) as
planned.

SCOPE

We conducted the audit from May 2012 to September 2013, at NNSA Headquarters in
Washington, DC, the Nevada Field Office and National Security Technologies, LLC in Las
Vegas, Nevada, and Los Alamos National Laboratory in Los Alamos, New Mexico.

METHODOLOGY

To accomplish the audit objective, we:

     •   Reviewed Department of Energy (Department) guidance, policies and procedures.

     •   Reviewed pertinent prior Office of Inspector General audits, as well as related reports
         from NNSA, the Defense Nuclear Facilities Safety Board, the field offices, and
         contractors.

     •   Interviewed key Federal and contractor personnel.

     •   Judgmentally selected a sample of 29 concerns and their associated 39 corrective
         actions from the 88 concerns and 19 observations in the 4 readiness reviews conducted
         on NCERC. We selected concerns from core requirements in which there were a large
         number of concerns in multiple readiness reviews or that were repeat concerns.
         Because a judgmental sample of issues was used, results are limited to the issues and
         associated corrective actions selected.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. The audit included tests of
controls and compliance with laws and regulations to the extent necessary to satisfy the audit
objective. In particular, we assessed the Department's implementation of the GPRA
Modernization Act of 2010 and found that NNSA had established performance measures related
to developing contractor assurance systems. Because our review was limited, it would not
necessarily have disclosed all internal control deficiencies that may have existed at the time of
our audit. We did not rely on computer-processed data to accomplish our audit objective.
Management waived an exit conference.


                                                9
                                                                                  Attachment 2


                                   PRIOR REPORTS


•   Audit Report on Management Controls over the National Nuclear Security
    Administration's Ability to Maintain Capability of the TA-18 Mission (OAS-M-07-02,
    February 2007). The National Nuclear Security Administration (NNSA) had not
    maintained the capability to conduct the unique criticality operations performed at
    Technical Area 18, and was at risk of delays in re-establishing this capability. Full
    resumption of criticality operations in Fiscal Year 2010, was at risk because had not
    adequately planned to replace, train and certify the staff needed to conduct criticality
    experiments. Until these operations were resumed, NNSA was unable to support the
    mission of the Nuclear Criticality Safety Program.

•   Audit Report on Nuclear Safety: Safety Basis and Quality Assurance at the Los Alamos
    National Laboratory (DOE/IG-0837, August 2010). Los Alamos National Laboratory
    continued to experience problems fully implementing numerous critical nuclear safety
    management measures because its management had not focused sufficient attention on
    implementing the Nuclear Safety Quality Assurance Program throughout the Laboratory.
    Also, the Los Alamos Site Office had not always taken the actions necessary to ensure
    nuclear safety at the Laboratory was improved by not establishing performance measures
    requiring updates of Documented Safety Analyses. Further, the Los Alamos Site Office
    had not established metrics requiring the Laboratory to correct identified system quality
    assurance weaknesses.




                                             10
                      Attachment 3



MANAGEMENT COMMENTS




        11
     Attachment 3 (continued)




12
     Attachment 3 (continued)




13
                                                                    IG Report No. OAS-M-13-09


                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report that would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page

                                           http://energy.gov/ig

      Your comments would be appreciated and can be provided on the Customer Response Form.
